                          STATEMENT OF THOMAS C. CROSS
                           INTERIM INSPECTOR GENERAL


                                         Before the
                  COMMITTEE ON SCIENCE AND TECHNOLOGY
            SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT
                 UNITED STATES HOUSE OF REPRESENTATIVES


                                     MARCH 19, 2009



Good morning Chairman Miller, Ranking Member Broun, and Members of the
Subcommittee. Thank you for the opportunity to testify today about how the National
Science Foundation (NSF) Office of Inspector General (OIG) intends to perform its
oversight responsibilities under the Recovery Act for the $3 billion in Recovery Act
funds allocated to NSF. Discussions regarding how best to ensure the accountability of
Recovery Act funds have been ongoing within the IG community, between our office and
NSF, and within our own office for several weeks. Like the hearing today, these
discussions are helping us to better prepare for the many challenges ahead.


To introduce myself, my name is Tim Cross and I was appointed Interim Inspector
General last January after serving as the NSF Deputy Inspector General for the past eight
years. Our office is unusual among the Designated Federal Entity OIGs in that we report
to the National Science Board, a policy and oversight body, rather than to agency
management. Over the years, this arms-length relationship from management has
allowed OIG the freedom to pursue a vigorous audit agenda and provide the Congress
and the Foundation with fully independent analyses and recommendations. NSF’s
mission to support education and basic research has also required that my office develop
a strong investigative effort to ensure research integrity and to address instances of
misconduct in research.
I would like to discuss three subjects with you today. First will be the OIG’s plan for
monitoring NSF's recovery spending. Second, I will describe some of the important
challenges facing NSF with regard to the Recovery Act. Finally, I will discuss how my
office will be addressing our current staffing needs.


Planning. Ensuring compliance with the many requirements of the Act poses a challenge
for all the IG offices involved, and we have appointed a special team within our office to
coordinate our planning of Recovery Act activities. The NSF OIG will pursue a strategy
aimed not only at safeguarding Recovery Act funds against waste, fraud and abuse, but
also at helping assess whether those funds produce the results sought in the Act. NSF has
submitted its Recovery Act plan to OMB for approval, and once the agency provides this
plan to our office, we will develop an implementation plan for our Recovery Act
oversight that includes:
   •   Preparing a risk assessment based on the agency’s spending plan and its own risk
       management plan;
   •   Assessing past OIG audit and investigative findings that are relevant to NSF’s
       management of Recovery Act funds;
   •   Contracting for audits and other reviews of the capacity of the agency’s financial
       accounting systems to track separately and report accurately on Recovery Act
       funds;
   •   Conducting focused reviews of the agency’s actions to implement its spending
       and risk management plans at the earliest possible point, when corrective actions
       will be most beneficial; and
   •   Initiating detailed audits and proactive investigation reviews to identify and
       evaluate issues flagged in our risk assessments.


We have also launched an outreach effort aimed at educating both agency program
managers and the public about OIG’s role under the Recovery Act. This effort also helps
us gather information and insights that are useful in determining the issues on which we
need to focus. OIG staff members are attending NSF planning sessions at all levels to
improve our understanding of agency activities and to make our concerns known at an


                                                                                            2
early stage. Given our independent oversight role, we cannot participate in agency
decision-making, but our input at this juncture may help NSF avoid problems down the
road. We have also been meeting with the IGs in other agencies that received Recovery
Act funding to brainstorm approaches to oversight. As you know, the Act requires that
OIGs examine issues raised by the public about the funds and post the results of their
inquiries on the OIG websites, with a link to the Recovery Accountability and
Transparency Board’s website. Our office will ensure that Recovery Act-related
investigations, audits, reviews, and information received from the public are handled in a
manner that is both expeditious and thorough. We are also developing new procedures to
address the Act’s broad requirements for investigating whistleblower allegations. In
general, we are able to respond to a question or tip from the public within hours of an e-
mail or hotline call, and we will be giving Recovery Act inquiries priority attention.


Challenges. Like other IG offices, we prepare a list each year of what we consider the
most significant challenges facing agency management. With regard to funding areas
that deserve special consideration, there are several challenges that have particular
relevance to the administration of the Recovery Act. Previous NSF OIG reviews have
identified Major Research Equipment and Facilities Construction (MREFC) expenditures
and NSF’s monitoring of previously-made awards as high-risk activities. Actions that
NSF has taken in recent years in response to past OIG recommendations have mitigated
some of the problems that we identified. However, we still consider both as high-risk
areas for purposes of the Recovery Act because of the large amounts of money at stake
and the fact that a number of our recommendations remain unimplemented. We will
watch both areas closely to ensure that Recovery Act funds are spent promptly and
prudently, and that:
      •   The agency keeps track of the awards and their associated funding;
      •   The award outputs and outcomes are clearly identified and consistent with the
          intended economic stimulus goals of the Recovery Act; and
      •   Subawardees can accurately account for and report their spending activities to
          the prime awardee.




                                                                                             3
In addition, we understand that NSF intends to use Recovery Act funds largely to
support proposals that have already been submitted. It will be a challenge for NSF to
implement the new requirements on awards that are based on earlier proposals, which
most likely did not envision or address the economic stimulus purposes or additional
reporting requirements of the Act.


Another management challenge that raises concern is the adequacy of NSF’s workforce.
Despite an increase in workload driven by an increasing number of research proposals
received over the past ten years, agency staffing levels have remained relatively flat.
Consequently, the NSF workforce has at times struggled to keep pace with the incoming
workflow. The administration of Recovery Act funds represents a significant increase in
NSF’s workload over at least the next year-and-a-half, with no provision for funding
additional staff or overhead. The agency is hoping that the infusion of new funds will
allow the rate of approved proposals to increase from the current 20 percent to as much as
30 percent in the short term, and we anticipate a concomitant increase in workload
throughout the life of the 2-5 year standard awards. We are concerned that the work
involved in distributing and monitoring the results of Recovery Act funding will severely
strain NSF’s grant-processing operations, staff, and information systems across the
agency. Absent an increase in staffing resources, the additional workload will make
compliance with the Act’s transparency and accountability requirements considerably
more difficult. This is an issue that we are discussing with NSF staff, as they seek ways
to manage the workload strain.


Further, a fundamental responsibility of my office is the promotion of research integrity,
and we are encouraged by recent presidential statements about its importance to the
advancement of science and technology in this country. In concert with NSF’s mission to
support basic research, we devote significant investigative resources to both preventing
and investigating research misconduct, which includes plagiarism in proposals or reports,
falsifying research data, and fabricating data. We are concerned that the large inflow of
research dollars into an already highly competitive arena, where issues of questionable




                                                                                             4
research practices and inadequate training in the responsible conduct of research remain
unresolved, can only increase the opportunities for abuse.


Finally, we will also be watchful of award recipients whose financial systems may have
difficulty handling a sizable influx of funds. Institutions already under financial strain,
for example, may be tempted to use the new funds for purposes other than those
designated in the awards. We have identified a number of specific grant characteristics
as “fraud indicators” that, based on our experience, may reflect a higher potential for
abuse. These include indications of questionable cost-sharing claims by institutions
receiving NSF awards, abuse of funds intended only for student support under a grant,
duplicate submissions of proposals, and the diversion of grant funds to unrelated
purposes. In addition to participating in NSF’s planning and implementation teams, our
investigators are sharing these indicators with NSF, along with practical guidance on
combating fraud. Through these efforts, we have developed a rigorous approach within
our office for handling cases of grant fraud, while also keeping the agency well-informed
on how to identify the warning signs and reduce or prevent its occurrence.


Staffing. I was also asked by the Subcommittee to comment on our own staffing
resources, specifically whether we planned to add staff and what professional skills might
be needed to perform our Recovery Act oversight responsibilities. The expected increase
in workload over the next five years creates a critical need for additional audit and
investigations capability. Because the funding we received in the Act is temporary, we
probably will not be able to use stimulus funding to hire additional permanent employees.


Instead, we are looking into options for the temporary hiring of auditors and
investigators, and we expect to use the bulk of our Recovery Act funding to retain
contractors to conduct audits and provide forensic support to investigations. We also plan
to contract with IT auditors to conduct technical reviews of specific NSF systems.
However, with so many government organizations -- IG offices and federal agencies
alike -- seeking contractor support as a result of the Act’s requirements, we are concerned
that it will be difficult to procure the professional assistance we need. In our FY 2010



                                                                                              5
budget request, we are seeking approval to add auditors and investigators, some of whom
could conceivably be hired before the start of FY 2010 with Recovery Act funds. With
an appropriation to back up such hires, we would not risk running out of staff funding
when the Recovery Act money is gone. In any case, it seems clear that we will also be
diverting some of our existing staff from audits and investigations they would normally
handle to instead perform work that is necessary to ensure proper oversight of NSF’s
management of its stimulus funds.


Due to the intense public interest and enhanced accountability requirements associated
with the Recovery Act, and because our work inherently focuses primarily on assessing
completed projects and expenditures, we expect that the additional workload generated
by the stimulus funds in the form of audits, investigations, outreach, and administration
will be significant and extend beyond the funding period. We are considering some
adjustments to our work methods, such as developing reviews that are shorter and more
focused than traditional audits tend to be, in order to provide more timely results. We
have to be mindful, however, that cutting corners poses intrinsic risks, and we must avoid
any actions that could compromise the quality, credibility, or usefulness of our work.
Our challenge will be to continue to provide the robust audits and investigations
necessary to address fraud, waste, and abuse issues occurring in NSF's programs and
activities, while also giving top priority to the special oversight requirements of the
Recovery Act. We look forward to meeting that challenge.


Chairman Miller, this concludes my testimony. I again want to thank you for the
opportunity to share my views. I will be happy to answer any questions.




                                                                                            6
